No. 20-62

In the Supreme Court of the United States
PARENTS FOR PRIVACY, ET AL., PETITIONERS
v.
WILLIAM P. BARR, ATTORNEY GENERAL, ET AL.
ON PETITION FOR A WRIT OF CERTIORARI
TO THE UNITED STATES COURT OF APPEALS
FOR THE NINTH CIRCUIT

MEMORANDUM FOR THE FEDERAL RESPONDENTS

JEFFREY B. WALL
Acting Solicitor General
Counsel of Record
Department of Justice
Washington, D.C. 20530-0001
SupremeCtBriefs@usdoj.gov
(202) 514-2217

In the Supreme Court of the United States
No. 20-62
PARENTS FOR PRIVACY, ET AL., PETITIONERS
v.
WILLIAM P. BARR, ATTORNEY GENERAL, ET AL.
ON PETITION FOR A WRIT OF CERTIORARI
TO THE UNITED STATES COURT OF APPEALS
FOR THE NINTH CIRCUIT

MEMORANDUM FOR THE FEDERAL RESPONDENTS

In a complaint filed in November 2017, petitioners
challenged (1) informal guidance issued by the federal
government between 2014 and 2016 concerning the application of Title IX to transgender students in public
schools, and (2) a policy of an Oregon school district permitting transgender students to use the school bathrooms, locker rooms, and showers associated with their
gender identity rather than their biological sex. See
Pet. App. 87a-95a. The district court dismissed petitioners’ claims against the government for lack of Article III standing, observing that by the time they had

(1)

2
filed their complaint, the government had “unequivocally withdrawn,” and had “forbidden reliance on,” the
“only guidance on the issue.” Id. at 112a.
Petitioners did not challenge the dismissal of claims
against the government on appeal, and the Ninth Circuit therefore expressly declined to review that dismissal. Pet. App. 21a n.9. Petitioners also expressly disclaim (Pet. ii n.1) any challenge to the dismissal now.
That factbound aspect of the court of appeals’ decision
is clearly correct and does not warrant certiorari, especially in light of petitioners’ repeated waiver. The government takes no position on whether certiorari is warranted with respect to the remainder of the decision below, addressing petitioners’ claims against the school
district. *
Respectfully submitted.
JEFFREY B. WALL
Acting Solicitor General

OCTOBER 2020

The government waives any further response to the petition for
a writ of certiorari unless this Court requests otherwise.
*

